App. 1
APPENDIX A
[Texas Court of Criminal Appeals]
APPLICANT ARTHUR RODRIGUEZ BAUTISTA
APPLICATION NO. WR-88.492-01
APPLICATION FOR 11.07 WRIT OF
HABEAS CORPUS AFTER REMAND
ACTION TAKEN
DENIED WITHOUT WRITTEN ORDER ON
FINDINGS OF TRIAL COURT AFTER HEARING.
/s/ David C. Newell
JUDGE

06/05/19
DATE

App. 2
APPENDIX B
WRIT NO. W05-24750-Y(A)
EX PARTE
ARTHUR BAUTISTA,

*

IN THE CRIMINAL

*

DISTRICT COURT
NO. 7

*

DALLAS COUNTY,
TEXAS

APPLICANT

*
TRIAL COURT’S FINDINGS OF FACT
AND CONCLUSIONS OF LAW
On this day came on to be considered Applicant’s
Application for Writ of Habeas Corpus and the State’s
Response. Having considered these pleadings and the
official court records, as well as all exhibits, memorandum and Proposed Findings of Fact and Conclusions of
Law offered by both parties, this Court enters the following findings of fact and conclusions of law.
HISTORY OF THE CASE
Applicant was convicted of murder and was sentenced to 40 years confinement. His conviction was
affirmed on direct appeal. See Bautista v. State, No. 0508-00905-CR (Tex. App. Dallas Aug. 27, 2009, pet. ref ’d)
((not designated for publication).
This is his first application for writ of habeas corpus.

App. 3
ISSUES RAISED IN APPLICATION
Applicant asserts that the trial judge’s repeated
improper comments demonstrated bias in favor of the
State and denied Applicant due process.
Applicant asserts that he received ineffective assistance of counsel at the guilt-innocence stage.
Applicant asserts that he was denied the effective
assistance of counsel on appeal.
RELEVANT EVIDENCE
Applicant’s trial counsel, Robert Udashen and
Gary Udashen were called at [sic] witnesses at a hearing on July 12, 2018.
FINDINGS OF FACT
General Findings
The Court takes judicial notice of the trial court’s
file in Cause No. F05-24750-Y.
The Court takes judicial notice of the clerk’s record
from the trial. Citations to said record will be “CR”.
The Court takes judicial notice of the reporter’s
record from the trial. Citation to said record will be
“RR-”.
The Court takes judicial notice of the entire contents of the Court’s writ file in Cause No. W05-24750Y(A).

App. 4
The Court takes judicial notice of the writ record
from the hearing on July 12, 2018. Citations to said
record will be “WR”.
The Court finds Robert Udashen and Gary
Udashen are well-known, experienced and qualified
defense attorneys in Dallas County. Both are among
the preeminent lawyers in the area. They have always
practiced criminal defense in both State and Federal
courts. They handle trials, appeals and post-conviction
matters. The Court finds them to be truthful and worthy of belief.
Trial Court’s Comments
This issue was not, and could have been, raised on
direct appeal. As such, it is procedurally barred. However, the Court will make specific findings on this issue
out of an abundance of caution.
Robert Udashen testified that he knew Judge
Snipes as a prosecutor (an Assistant United States Attorney), lawyer, judge, and colleague prior to this trial.
(WR: 10-11). Robert believed Judge Snipes was a smart
lawyer and, as a judge, he provided people with fair
trials and was not vindictive or retaliatory. (WR: 1112). Robert was not aware of anything Judge Snipes
had ever done of an improper nature to help the State,
and he does not believe that Judge Snipes attempted
to help the State or hurt the defendant in this case.
(WR: 10-12).

App. 5
Judge Snipes, who presided over this trial, was
known to expect attorneys to be prepared for trial and
to not waste his or the jury’s time. He ran an efficient
court and conducted many trials (many more than the
second place felony court in Dallas County) during his
years on the bench. He wanted to dispose of cases in a
timely manner. As such, he frequently attempted to
‘‘move things along” during voir dire and during trial.
1. When members of the venire indicated they
could not convict a defendant based on the testimony
of one witness, the Judge said, “I want to put your
minds at ease. This is not a one-witness case.” (RR-4:
48). In this case, the State planned to offer the testimony of Miguel Murillo and Applicant’s video statement (which provided Applicant’s version of events).
(WR: 12-13). Even if it had been a one-witness case,
Robert believed that it would have been helpful to the
defense and not harmful. (WR: 13-14). Thus, there was
nothing improper about the Court’s statement because
it was not a one-witness case.
2. When members of the venire indicated they
could not consider probation for murder, the Judge
asked the ADA to give “the mercy killing old folks hypothetical” (RR-4: 69-71). Robert believed that Judge
Snipes was merely trying to make sure that they covered the full range of punishment with the panel. Further, this comment was not prejudicial. Even after the
hypothetical was given, many of the veniremen still
had problems giving probation which did not prevent
those jurors from being challenged for cause. (WR: 1415).

App. 6
3. When members of the venire expressed concern that innocent people had been convicted and that
the number of exonerees from Dallas was “just ridiculous”, the Judge said, “ . . . yes, we’ve had problems in
this county in the past, but the current administration
under Mr. Watkins is working very, very hard to make
sure that that doesn’t happen in the future.” (RR-4:
112). It was common knowledge at the time that District Attorney Craig Watkins was doing things differently than previous administrations. (WR: 16). Robert
believed Judge Snipes was attempting to keep the
panel from focusing on the exonerations and keep jury
selection on track. (WR: 16).
4. When a venireperson asked defense counsel
whether the prosecutors coached the witnesses “before
they even get on the stand”, as “they do it on CSI”, the
Judge said that he would “guarantee that none of these
four lawyers do that.” (RR.-4: 124-125). This was a neutral comment in that it applied equally to the prosecutors and the defense attorneys. (WR: 17, 20).
5. The Judge told the jurors that he would buy
their lunch the next day because “it has been my experience that is you can get to know each other outside
this whole jury process, it will help you once you decide
to start deliberating in reaching a unanimous verdict
in this case, which is what everybody here wants.” (RR4: 221). Judge Snipes’ comment that he wanted a unanimous verdict was not improper. It was the truth as the
State wanted a unanimous guilty verdict and the defense wanted a not guilty verdict. (WR: 21).

App. 7
6. The Judge repeated answers of the State’s witness, Miguel Murillo. The Judge repeated that Murillo
said that Applicant said, “I’m gonna cut this punk-ass
bitch”; that Murillo’s house “has been shot at before”;
and that Murillo “fears death”. (RR-5: 26, 41-42). Robert explained that Murillo often mumbled, was hard to
understand, and his answers were not always clear
and distinct. (WR: 22-23). Judge Snipes was not attempting to emphasize bad testimony but he repeated
things that were had [sic] to hear, follow, or understand.
(WR: 23-24). This was not prejudicial or improper.
7. The Judge interrupted Murillo’s testimony, declared a recess and said that he was allowing the prosecutor to ask some leading questions “because I believe
it’s necessary to develop the testimony of this witness”
and “to make th presentation effective for the ascertainment of the truth.” Judge Snipes also stated that
Murillo was “extremely unsophisticated” and “not educated.” (RR-5: 75-76). As Robert testified, Murillo was
“slow” and it took him a long time to answer questions.
(WR: 26). Snipes recommendation resulted in a more
efficient presentation of Murillo’s testimony which was
more effective for the jury. (WR: 26-28).
8. Defense counsel objected to the prosecutor
asking a detective how Murillo’s inconsistent statements played into his investigation. The Judge responded that he would allow some testimony but did
not want the prosecutor to make the detective “into a
human lie detector and invading the province of the
jury, if you know what I mean.” (RR-7: 45-46). Robert
testified that he did not see Judge Snipes’ comment as

App. 8
objectionable. (WR: 30). Robert testified that Judge
Snipes was not saying that [someone] failed or passed
a polygraph. (WR: 30). Robert believed that Judge
Snipes was using the phrase “in a more generic sense
that a jury would understand that this officer can’t be
allowed to serve as a human lie detector, and I think
the jury would understand what that meant.” (WR:
30).
Defense counsel testified that he could have made
objections to all of the comments writ counsel asked
about but “in the course of the trial, it didn’t seem warranted.” (WR: 31). Robert did not believe that any of
the comments were prejudicial. (WR: 31). Robert
stated, “If we had objected to him repeating the comments [of Murillo], that would have just emphasized it
again for the jury those particular comments that
you’re saying shouldn’t be used.” (WR: 31). When asked
if the objections could have been made by approaching
the bench, Robert stated, “I think even in that situation if we pop up and approach the bench right after
the judge does that, the jury is going to understand
what’s going on. . . . Juries aren’t stupid, and they
know why you’re approaching the bench and what
you’re discussing. I think it just emphasizes what just
happened.” (WR: 31). Robert indicated that had he approached the bench and made an objection, it would
have been overruled. (WR: 31). When asked if overruling the objection would have preserved the issue for
appeal, Robert responded, ‘‘Yes, except I don’t see it as
a good appellate issue, so I’m not sure what you’re preserving.” (WR: 32).

App. 9
The Court’s comments did not serve to assist the
State in this prosecution. The comments were not comments on the weight of the evidence nor did they divulge the Judge’s opinion of the case. The comments
were made in an effort to present an efficient case and
not waste the jury’s time. Some of the comments were
just as beneficial to the defense as the prosecution. The
comments did not violate Applicant’s due process
rights.
Ineffective Assistance of Trial Counsel
1. Defense counsel did not object to the Judge’s
allegedly improper comments during the trial. The
Court does not find the comments to be improper and
thus counsel cannot be ineffective for failing to object.
Robert testified that he did not believe Judge Snipe’s
[sic] comments were calculated to benefit the State or
prejudice the defense. (WR: 10, 32, 36). This was a strategic decision on counsel’s part.
2. Defense counsel did not file a motion in limine
or object to references to the incident as “the murder”
and the deceased as the “victim”; and once, referred to
the deceased as the victim himself. Robert did not file
said motion as he did not believe the terms were determinant in trial. (WR: 43). Clearly, it was the State’s
opinion that Applicant committed murder as that was
what he was charged with. Whether the jury believed
the shooting was murder or self-defense, the victim
was still a victim.

App. 10
3. Defense counsel did not file a motion in limine
or object to police opinion testimony that the officers
did not believe applicant. These statements were made
during Applicant’s police interrogation and as such,
were admissible in the context of video interrogation.
(WR: 44-46).
4. Defense counsel failed to request a lesser included offense instruction on I manslaughter which
was raised by the testimony. Robert specifically discussed this with Applicant. Counsel advised Applicant
that manslaughter would be a lesser punishment but
it also provided the jury an opportunity to compromise
on the verdict. (WR: 50). Applicant decided he did not
want the manslaughter instruction because he did not
want the jury to find him guilty of any offense. (WR:
50).
5. Applicant did not testify. Defense counsel did
not object when the prosecutor argued, “Now there was
only two people left alive from this incident and you
heard from the witness stand from Mickey [Murillo]”
and “We can’t get into the man’s mind and why he did
what he did . . . ”. When considered in the context in
which they were made, these statements were not a
comment on Applicant’s failure to testify. (WR: 5-55).
Counsel’s performance was not deficient and did
not prejudice the defense. Applicant received effective
assistance of counsel.

App. 11
Ineffective Assistance of Counsel on Appeal
Appellate counsel failed to raise an issue that the
Judge’s allegedly improper comments during the trial
demonstrated bias in favor of the State and denied Applicant due process of law. Robert testified that he was
aware of the Blue case at the time of the appeal, but
did not raise this issue because he did not consider the
Judge’s comments to be prejudicial. (WR: 40).
Appellate counsel was not deficient and did not
prejudice the defense.
CONCLUSIONS OF LAW
Applicant has not been denied any of the rights
guaranteed him by the United States Constitution or
the Texas Constitution.
Applicant is legally confined and restrained.
COURT’S RECOMMENDATION
This Court recommends that this writ of habeas
corpus be DENIED.
ORDERS OF THE COURT
In implementing the Court’s Finding of Fact and
Conclusions of Law, the Clerk will:
1. Prepare a transcript of papers in this cause
and transmit the Court’s Order and the Findings of
Fact and Conclusions of Law, including the judgment

App. 12
and indictment, all plea papers, if any, and the Court
of Appeals opinion, if any, to the Court of Criminal Appeals as provided by TEX. CODE CRIM. PROC. ANN. art.
11.07.
2. Send a copy of this Order and the Findings of
Fact and Conclusions of Law to the Applicant’s counsel,
Randy Schaffer, 1021 Main, Suite 1440, Houston, TX
77002, and to counsel for the State, Jaclyn O’Connor
Lambert Assistant District Attorney, 133 N. Riverfront Blvd. LB-19, Dallas, TX 75207 by depositing
same in the U.S. Mail.
Signed and entered February 4, 2019.
/s/ Chika Anyiam
JUDGE

